Docket Number: _ _ _ _ _ _ _ _ _ _ _ __

INTHE

SUPREME COURT OF THE UNITED STATES
EDDISON RAMSARAN, M.D.,
Petitioner,
V.

CANDACE LAPIDUS SLOANE, M.D. AND JOSEPH P. CARROZZA, JR., M.D.,
Respondents.
On Petition for Writ of Certiorari
to the Massachusetts Supreme Judicial
Court

PETITION
FOR WRIT OF CERTIORARI

Counsel for the Petitioner:

J. Peter Kelley, Esq.,
Counsel of Record, and
Alexander P. Volpe, Esq.
BRUCE & KELLEY, P.C.
20 Mall Road, Suite 225
Burlington, MA 01803
Tel: (781) 262-0690
Fax: (781) 229-0383
pkelley@brucekelleylaw.com
avolpe@brucekelleylaw.com

QUESTIONS PRESENTED FOR REVIEW
In this case, the Petitioner, Eddison Ramsaran, M.D., alleges that during an
investigation into his medical practice, certain non-attorney members of the
Massachusetts Board of Registration in Medicine ("BORIM") fabricated evidence to
assert sufficient cause existed and persuade other Board members to recommend that
BO RIM initiate disciplinary proceedings against Dr. Ramsaran.
As decided by this Court in its decision from Buckley v. Fitzsimmons, 509 U.S.
259 (1993):
A prosecutor may not shield his investigative work with the aegis of
absolute immunity merely because, after a suspect is eventually
arrested, indicted, and tried, that work may be retrospectively described
as 'preparation' for a possible trial. Buckley, 509, U.S., at 276.
Thus, in recognizing that a prosecutor may be entitled to absolute immunity only for
conduct directly related to their prosecutorial function, this Court explained:
There is a difference between the advocate's role in evaluating evidence
and interviewing witnesses as he prepares for trial, on the one hand, and
the detective's role in searching for the clues and corroboration that
might give him probable cause to recommend that a suspect be arrested,
on the other hand. Buckley. 509, U.S., at 274.
Accordingly, the test for determining whether an individual is entitled
prosecutorial-based absolute quasi-judicial immunity turns on whether, at the time
of the specific conduct, the individual was functioning as an advocate of the state.
This advocate "function'' can attach no sooner than the time evidence gathered during
an investigation is evaluated to determine if it provides sufficient cause to initiate
adversarial proceedings. When sufficient cause does not exist, purely investigatory
work undertaken that continues the search for evidence which may give rise to
1

sufficient cause is not protected by absolute immunity, as "[a] prosecutor neither is,
nor should consider himself to be, an advocate before he has probable cause to have
anyone arrested." Buckley, 509 U.S., at 274.
Here it is alleged that non-attorney administrative officials of a state medical
licensing board manufactured and planted evidence during a pre-adjudicatory
investigation of a physician licensee in order to persuade the board to initiate
adjudicatory proceedings against the licensee. Simply, was it an error for the lower
courts to hold that non-attorney administrative officials function as prosecutors and
are entitled to absolute immunity when manufacturing and planting evidence during
a pre-adjudicatory investigation of a licensee?

ii

LIST OF THE PROCEEDINGS DIRECTLY RELATED TO THIS CASE
Pursuant to Supreme Court Rule 14 (b)(iii) (amended 2019), the following is a
list of all proceedings in trial and appellate courts that are directly related to the
case in this Court:

Court

Docket No.

Case Caytion

Date of
Judgment

Massachusetts
Superior
Court,
Middlesex
County

1881CV03571 Eddison Ramsaran, M.D. v. October 2, 2019
Candace Lapidus Sloane,
MD.,
Chair, Board of (Judgment of
Registration in Medicine, and Dismissal)
Joseph P. Carrozza, Jr., MD.

Massachusetts
Court of
Appeals

2019-P-1745

Eddison Ramsaran, MD. v. December 31, 2020
Candace Lapidus Sloane,
MD.,
Chair, Board of (Dismissal
Registration in Medicine, and Affirmed)
Joseph P. Carrozza, Jr., MD.

Massachusetts
Supreme
Judicial Court

FAR-28053

Eddison Ramsaran, MD. v. March 11, 2021
Candace Lapidus Sloane,
M.D.,
Chair, Board of (Discretionary
Registration in Medicine, and Review Denied)
Joseph P. Carrozza, Jr., MD.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW ........................................................... i
LIST OF DIRECTLY RELATED PROCEEDINGS ........................................... .iii
TABLE OF AUTHORITIES .................................................................................... vi
PETITION FOR WRIT OF CERTIORARI. ........................................................... 1
CITATIONS TO PRIOR ORDERS ......................................................................... 1
JURISDICTION ........................................................................................................ 1
CONSTITUTIONAL PROVISIONS ....................................................................... 2
STATEMENT OF THE CASE ................................................................................. 3
J.

PARTIES AND BACKGROUND .....................................................................•...... 3

IL

INITIATION AND ADJUDICATION OF ADMINISTRATIVE ADJUDICATORY
PROCEEDINGS AGAINST DR. RAMSARAN ........................................................ IO

III.

DR. RAMSARAN'S ALLEGATIONS AND THE DECISIONS OF THE LOWER
COURTS CONCERNING THE TREATMENT OF FEDERAL QUESTION ISSUES ...... 13

REASONS FOR GRANTING WRIT OF CERTIORARI .................................... 20
I.

Tms CASE INVOLVES AN IMPORTANT FEDERAL QUESTION ISSUE WITH
RESPECT TO
WHETHER ADMINISTRATIVE OFF1CIALS
OF THE
MASSACHUSETTS BOARD OF REGISTRATION IN MEDICINE ARE ENTITLED
TO .ABSOLUTE IMMUNITY FOR CONSTITUTIONAL VIOLATIONS COMMITTED
BY FABRICATING EVIDENCE DURING INVESTIGATION OF A PHYSICIAN ............ 20

IL

THE MASSACHUSETTS APPEALS COURT DECIDED AN IMPORTANT FEDERAL
QUESTION ISSUE IN A MANNER WHICH SIGNIFICANTLY CONFLICTS WITH
RELEVANT DECISIONS OF THIS COURT, FINDING THE RESPONDENTS
ENTITLED TO ABSOLUTE IMMUNITY BECAUSE FABRICATING EVIDENCE
DURING A PRE-ADJUDICATORY INVESTIGATION IS A FUNCTION OF A
PROSECUTOR . ................................... , ............................................................ 23

CONCLUSION ......................................................................................................... 28
APPENDIX .............................................................................................................. 31
IV

App. A.

Order and Judgment Allowing Defendants' Motion to Dismiss the
Amended Complaint, Eddison Ramsaran, M.D. v Candace
Lapidus Sloane, M.D. and Joseph P. Carrozza, MD., Mass.
Superior Court, No.: 1881-CV-03571 (October 3, 2019) ................... la

App. B.

Memorandum and Order Affirming Judgment of Dismissal of the
Amended Complaint, Eddison Ramsaran, MD. v Candace
Lapidus Sloane, M.D. and Joseph P. Carrozza, M.D., Mass.
Appeals Court No.: 19-P-1745 (December 31, 2020) ......................... 3a

App. C.

Notice of Denial of Application for Further Appellate Review
(electronic only), Eddison Ramsaran, M.D. v Candace Lapidus
Sloane, M.D. and Joseph P. Carrozza, MD., Massachusetts
Supreme Judicial Court No.: FAR-28053 (March 11, 2021) ............. 9a

App. D. Administrative Magistrate Recommended Decision to Dismiss
Statement of Allegations, Board of Registration in Medicine v.
Eddison Ramsaran, M.D., Division of Administrative Law
Appeals Adjudicatory No. RM-15-672 (October 22, 2018) ................ 12a
App. E.

BORIM Response to Recommended Decision and Order of
Remand to the Division of Administrative Law Appeals, In the
Matter of Eddison Ramsaran, M.D., Board of Registration in
Medicine Adjudicatory Case No. 2015-040 (January 24, 2019) ....... 22a

App. F.

Fourth Interim Order, Eddison Ramsaran, MD. v. Candace
Lapidus Sloane, MD. and Joseph P. Carrozza, M.D., Mass.
Supreme Judicial Court No. SJ-2017-0349 (March 22, 2019) .......... 24a

App. G.

Administrative Magistrate's Response to Order of Remand,
Board of Registration in Medicine v. Eddison Ramsaran, MD.,
DALA Docket No. RM 15-672 (April 30, 2019) ................................. 28a

App. H. BORIM Order Adopting DALA Recommended Decision and
Dismissing Statement of Allegations, In the Matter of Eddison
Ramsaran, MD., BORIM Adjudicatory Case No. 2015-040 (May
30, 2019) ............................................................................................ 49a
App. I.

243 CODE OF MASSACHUSETTS REGULATIONS ("CMR'') 1.01-1.05:
Board of Registration in Medicine; Disciplinary Proceedings ......... 50a

App. J.

801 CODE OF MASSACHUSETTS REGULATIONS ("CMR") 1.01-1.04:
Standard Adjudicatory Rules of Practice and Procedure ................ 60a
V

TABLE OF AUTHORITIES CITED
I.

CASE LAW

Bradley v. Fisher, 80 U.S. 335 (1872) ....................................................................... 20
Buckley v. Fitzsimmons, 509 U.S. 259 (1993) ............................................... 19-25, 27
Burns v. Reed, 500 U.S. 478 (1991) ............................................................... 19-22, 24
Butz v. Economou, 438 U.S. 478 (1977) .............................................................. 19-22
Forrester v. White, 484 U.S. 219 (1988) ................................................................... 21
Imbler v. Pachtman, 424 U.S. 409 (1976) ........................................................... 20-21

II.
42

STATUTES

u.s.c. § 1983 ······························································································ 2, 13, 20

M.G.L.

III.

C.

112, § 5 ......................................................................................................... 3

STATE RULES AND REGULATIONS

243 CMR 1.03 ................................................................................................. 3-4, 7, 26
243 CMR 1.04 .............................................................................................................. 5
243 CMR 1.05 ............................................................................................................ 16
801 CMR 1.0l ..................................................................................................... 11, n.4

IV.

OTHER AUTHORITIES AND RESOURCES

Kris Olson, Decisions Show Overreach Pattern by M.D. Licensing Board,
MASSACHUSETTS_ LAWYERS WEEKLY, (Jul. 30, 2020), available at
https://masslawyersweekly.com/2020/07/30/decisions-show-overreach-patternby-m-d-licensing-board/ ..................................................................................... 13, n.5

VI

PETITION FOR WRIT OF CERTIORARI
The Petitioner, Eddison Ramsaran, M.D., by and through counsel, respectfully
petitions this Honorable Court for a Writ of Certiorari to review the Judgment
entered by the Massachusetts Court of Appeals affirming dismissal of the Petitioner's
Amended Complaint against the Respondents, Candace Lapidus Sloane, M.D. and
Joseph P. Carrozza Jr., M.D., of which the Massachusetts Supreme Judicial Court
has denied further appellate review.

CITATIONS TO PRIOR ORDERS
The decision and order dated October 2, 2019 by the Massachusetts Superior
Court for Middlesex County (Henry, J.) allowing the Respondents' Motion to Dismiss
the Amended Complaint is attached at Appendix ("Pet.App.") la. The Massachusetts
Court of Appeals affirmed Judgment of dismissal in a Summary Decision dated
December 31, 2020, which is attached at Pet.App. 3a. The Massachusetts Supreme
Judicial Court denied Dr. Ramsaran's application for further appellate review on
March 11, 2021, a copy of which is attached in the Appendix at 9a.

STATEMENT OF THE BASIS FOR JURISDICTION
Dr. Ramsaran's application for further appellate review was denied by the
Massachusetts Supreme Judicial Court on March 11, 2021. While Supreme Court
Rule 13 permits a petitioner to seek review of a lower state court decision within 90
days after the state's court of last resort denying discretionary review, the Supreme
Court Order Regarding Filing Deadlines (dated March 29, 2020) extended the period
of time by which this Petition must be filed to 150 days after discretionary review

1

was denied. Accordingly, Dr. Ramsaran invokes this Court's jurisdiction under 28
U.S.C. § 1257 (a), having timely filed this Petition for a Writ of Certiorari within 150
days of the Massachusetts Supreme Judicial Court's decision to deny further
appellate review of this case.

CONSTITUTIONAL PROVISIONS
The Fifth Amendment to the United States Constitution, provides:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in the Militia, when in actual
· service in time of War or public danger; nor shall any person be subject
for the same offence to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just
compensation.
Section 1 of the 14th Amendment to the United States Constitution provides:
All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
42 U.S.C. § 1983 provides:
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer's
judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable.
2

For the purposes of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be considered to be a statute
of the District of Columbia.

STATEMENT OF THE CASE
J.

PARTIES AND BACKGROUND

Dr. Ramsaran is a physician specializing in interventional cardiology and has
been licensed to practice medicine in the Commonwealth of Massachusetts since
1992.

Pet.App. 32a.

The Massachusetts Board of Registration in Medicine

("BORIM") is an administrative agency enacted pursuant to M.G.L. c. 112 and has
the authority to regulate, investigate, and discipline physicians licensed in
Massachusetts. See M.G.L. c. 112, § 5. Respondent Candace Lapidus Sloane, M.D.
(hereinafter Sloane), is a physician licensed in Massachusetts and, at all times,
served as Chair ofBORIM. Pet.App. 3a. Respondent Joseph P. Carrozza, Jr., M.D.
(hereinafter Carrozza) is a physician licensed in Massachusetts and, like Dr.
Ramsaran, specializes in interventional cardiology. At all relevant times, Carrozza
was a physician member of BO RIM and served as Chair of its Complaint Committee.
Pet.App. 3a.
Pursuant to 243 Code of Massachusetts Regulations ("CMR") 1.03, upon
receipt of a complaint or report about a physician licensee's fitness to practice,
BORIM must "conduct such preliminary investigation, including a request for an
answer from the licensee, as is necessary to allow the Complaint Committee to
determine whether a complaint is frivolous or lacking in either merit or factual basis."
243 CMR 1.03 (3)(a). If the preliminary investigator determines that an anonymous

3

complaint is frivolous, no further action is permitted, and the complaint will not be
assigned a BORIM investigatory docket number.

See 243 CMR 103 (3)(a).

For

complaints or reports not submitted anonymously, the complaint must be assigned
an investigatory docket number and forwarded to BORIM's Complaint Committee for
further investigation.

See 243 CMR 1.03 (3)(b).

If the Complaint Committee

"determines that the complaint is frivolous or lacking in either legal merit or factual
basis," it will close complaint and terminate the investigation. 243 CMR 1.03 (3)(b).
For complaints that are not obviously frivolous, the Complaint Committee "shall
conduct, or cause to be conducted, any reasonable inquiry or investigation it deems
necessary to determine the truth and validity of the allegations set forth in the
complaint."

243 CMR 1.03 (3)(b).

In order to discover evidence during its

investigation that may help corroborate or refute a complaint's allegations, "the
Complaint Committee may request any person to attend a conference at any time
prior to the commencement of an adjudicatory proceeding." 243 CMR 1.03 (4).
If, during its investigation, "the Committee determines that there is reason to

believe that the acts alleged occurred and constitute a violation for which a licensee
may be sanctioned by the Board, the Committee may recommend to the Board that it
issue a Statement of Allegations." 243 CMR 1.03 (9). A statement of allegations
("SOA'') is essentially an order to show cause. Upon receipt of a recommendation by
the Complaint Committee to issue a SOA, BORIM must review the complaint and
any evidence gathered by the Committee to determine, by a majority of voting
members, whether to issue a SOA or close the investigative docket. If BO RIM decides

4

that the evidence gathered by the Committee supports a finding that sufficient cause
exists to issue a SOA, the matter will be assigned an adjudicatory docket ~umber and
referred to the Division of Administrative Law Appeals ("DALA") for adjudication
before an administrative law magistrate. See 243 CMR 1.04. In essence, upon issuing
a statement of allegations, BORIM simultaneously initiates an administrative
adjudicatory proceeding. Prior to the issuance of a SOA, the administrative mission
is purely a pre-adjudicatory fact-finding investigation.
From 2001 to 2010, Dr. Ramsaran was the Director of the Cardiac
Catheterization Laboratory ("CCL") at Saint Vincent Hospital in Worcester, MA
(hereinafter "SVH"). Pet.App. 32a. In January 2009, the now-defunct Massachusetts
Data Analysis Center ("MassDAC") analyzed statistical data of patient mortality
rates for percutaneous coronary intervention ("PCI") procedures.1

Pet.App. 33a.

MassDAC provided SVH a report in 2009 identifying SVH as a statistical outlier for
high mortality rate between 2007 and 2008. Prompted by MassDAC's reporting, in
September 2011, SVH decided to suspend certain privileges granted to Dr. Ramsaran,
pending an internal review of a mere 15 PCI procedures performed by Dr. Ramsaran
between 2009 and 2011 (approximately 1.4% of his total cases). Pet.App. 12a-15a.
SVH notified BORIM of its action via statutory report and BORIM, in response,
opened a preliminary investigation into Dr. Ramsaran's medical practice in
December 2011, assigning the matter Investigatory Docket No. 11-259. Pet.App. 5a.

1

MassDAC was a statutorily created agency that collected patient and health data in the Commonwealth

for analytic and statistical reports, which operated from 2002 to 2017 before being terminated.

5

The evidence gathered during the preliminary investigation included the
medical records of the 15 patients Dr. Ramsaran treated that were the subject of the
2011 statutory report, as well as an October 15, 2012 report from BORIM's cardiology
expert, Paul T. Schwerdt, M.D., based on a review of the same 15 sets of medical
records.

Pet.App. 30a. BORIM's expert report did not recommend any practice

restrictions beyond a brief probation period. See Amended Verified Complaint, Mass.
Super. Ct. no. 1881CV03571 ("Am.Comp."),

Jr 33.

In December 2012, one year after the start of the preliminary investigation,
Dr. Ramsaran agreed to be interviewed by the preliminary investigator, after which
he was assured the matter would be resolved quickly. Am.Comp. Jr 19. At that time,
no evidence was obtained which warranted sanctions or initiation of disciplinary
proceedings. Am.Comp.
provide

BORIM's

Jr 35. Over the next few years, Dr. Ramsaran continued to

preliminary

investigator

with

practice

updates

and

accomplishments. Dr. Ramsaran strived to rebuild his practice; although he worked
directly with world-recognized experts in his specialty, the lingering "open" BORIM
investigation prevented him from undertaking many professional opportunities.
Am.Comp.

Jr 37. While Dr. Ramsaran consistently demonstrated that he was a

competent, skillful practitioner, BORIM never took action on the matter - until
September 2014, when it informed Dr. Ramsaran the Complaint Committee, led by
Carrozza, was taking over the investigation. Am.Comp.

Jr 29.

Carrozza, as Chair of the Complaint Committee, instigated, directed, and
supervised the Committee's investigation into Dr. Ramsaran's practice; he also

6

received all evidence and updates obtained during the preliminary investigation,
which showed no indication of practice concerns for Dr. Ramsaran. Am.Comp. Jr 29.
Although the report which prompted the preliminary investigation was specifically
limited to treatment of 15 SVH patients between 2009-2011, Carrozza expanded the
Committee's investigation to include matters unrelated to Dr. Ramsaran's practice of
medicine. Am.Comp. Jrlr 39-50. The Complaint Committee's investigation refocused
on seeking evidence of misconduct taking place after the SVH action. The expanded
investigation, however, still revealed no evidence of misconduct at any time, either
before or after the 2011 statutory report. Am.Comp.

Jr 45.

After failing to discover any evidence of Dr. Ramsaran's misconduct, the
Complaint Committee eventually requested that Dr. Ramsaran appear for a second
interview, pursuant to 243 CMR 1.03 (4), on June 18, 2015. Am.Comp. Jr 39. In
accordance with BORIM's regulations, the Committee was acting solely pursuant to
its investigative authority and mandate when it initiated the conference. See 243
CMR 1.03 (4) (authorizing such conferences only "prior to the commencement of an
adjudicatory proceeding'').
At the Complaint Committee's June 18, 2015 conference, Carrozza, as chair,
led a pervasive interrogation of Dr. Ramsaran, specifically inquiring into "politicar'
matters among physicians in their shared specialty, interventional cardiology, and
accusing Dr. Ramsaran of harboring "grudges" against a number of their colleagues.
Am.Comp. Jr 39-45. Carrozza ridiculed Dr. Ramsaran's medical opinions concerning
peripheral vascular procedures - techniques which were beyond the scope of

7

Carrozza's grant of privileges and medical practice. Id. As the interview necessarily
occurred prior to the initiation of any adjudicatory proceeding, it was not transcribed
or recorded. See 243 CMR 1.03 (4). Recognizing insufficient cause still existed to
recommend that BORIM issue a SOA, the Complaint Committee took no action
following the meeting and simply decided to keep its investigation "ongoing."
On August 6, 2015, Dr. Ramsaran informed the Complaint Committee that he
had accepted an invitation from the UMass Mitral Clip repair team to train in a novel
trans-catheter valvular procedure. Am.Comp. Jr 27. Following this development,
Carrozza convened a meeting of the Complaint Committee that very day to
"deliberate" about its investigation, which had still revealed no evidence of practice
concerns.

Am.Comp., at 2.

Recognizing that the evidence did not give rise to

sufficient cause to recommend initiating an adjudicatory proceeding against Dr.
Ramsaran, Carrozza created false "expert evidence" which had not been gathered
during the investigation, but instead that rested on Carrozza's own contrived
musings on Dr. Ramsaran competency. Am.Comp., at 3. More specifically, Carrozza
instructed the Committee to disregard the legitimate evidence gathered during the
four-year investigation, including the expert report ofBORIM's only retained expert,
which did not support a finding to recommend sanctions or any practice restrictions,
and instead accept Carrozza's covert and unsupported conclusions that Dr. Ramsaran
was an incompetent, unsafe, and negligent physician.

Am.Comp. Jrlr 72-73.

Unlawfully abusing his power as chair of the Complaint Committee, Carrozza decided
to assign himself to the roles of both lead investigator and covert cardiology expert -

8

not only dictating which evidence to consider or disregard by the Committee, but also
fabricating the very same covert "expert" evidence which the Committee was
instructed to accept as proof of Dr. Ramsaran's misconduct. Am.Comp.

Jr 50.

Violating known parameters of his singular role as an investigator, Carrozza
instructed the Committee to accept his "covert expertise" as sufficient evidence of Dr.
Ramsaran's misconduct, despite lacking valid basis for the opinion. Am.Comp., at 3.
This "covert expertise" was, in turn, relied on by the Complaint Committee, which
notified Dr. Ramsaran on August 7, 2015 (the day after learning of the opportunity
with UMass) that it would recommend to BORIM a Statement of Allegations issue
against him.

Id.

In the months that followed, BORIM through its attorneys

acknowledged the Committee's recommendation to BORIM was based on Carrozza's
covert "expert" opinions. 2 Moreover, it was eventually discovered that Sloane, as
Chair of BORIM, knew of, acquiesced to, and/or approved Carrozza's plan to use
planted covert expert evidence to deceive the Complaint Committee, and later the
voting members of BORIM, into unjustly recommending to pursue a course of
sanctions against Dr. Ramsaran aimed at revoking his license. Am.Comp.
II.

2

INITIATION AND ADJUDICATION OF
PROCEEDINGS AGAINST DR. RAMSARAN

ADMINISTRATIVE

Jr 77.

ADJUDICATORY

In a letter on November 30, 2015, BORIM's counsel even justified the decision to supplant

the legitimate evidence gathered during the investigations with Carrozza's covert and
unsupported accusations based on his supposed "personal knowledge of the practice of
interventional cardiology."
9

On December 17, 2015, BORIM convened the first administrative hearing in
this matter, after which it voted to issue its SOA against Ramsaran. Pet.App. 13a.
Upon issuing the SOA, Dr. Ramsaran's investigative docket was immediately closed
and the matter was assigned Adjudicatory Case Docket No. 2015-040. Pet.App. 49a.
The matter was then transferred to the Division of Administrative Law Appeals
("DALA'') for adjudication on the merits of the evidence, which, as discussed, were
fictional.
After a protracted and expensive litigation stage in the adjudicatory process,
four days of hearings were held between September 24 and 28, 2018 before DALA's
Chief Administrative Magistrate - approximately seven years after BORIM opened
its investigation. Pet.App. 13a-14a. Only two witnesses testified at the hearings: Dr.
Ramsaran; and BORIM's purported expert, Dr. Schwerdt. 3 Dr. Schwerdt offered
widely disparate opinions regarding the care provided by Dr. Ramsaran and testified,
repeatedly, as to a basic misapprehension and lack of understanding of the concept
of "standard of care," a concept critical to BORIM's allegations and burden of proof.
Pet.App. 12a.
After BORIM rested, Dr. Ramsaran moved to dismiss the SOA based on the
complete lack of expert evidence against him. The Chief Magistrate agreed with Dr.
Ramsaran and issued a recommendation on October 22, 2018 to BORIM to dismiss

3

Dr. Schwerdt testified during the heariugs that his grant of practice privileges is personally overseen by

Carrozza, only further illustrating the extent of Carrozza' s undue influence and involvement in this
frivolous disciplinary proceedings.

the SOA. Concerning Dr. Schwerdt, the Magistrate wrote, "I find that he did not
know the applicable standard of care and J give his testimony no weight." Pet.App.
12a. BORIM's inability to set forth the requisite evidence to support its case, after
seven years, strongly demonstrates the Committee's investigation, Carrozza's
fabricated covert evidence, and the prolonged litigation effort that followed BORIM's
decision to initiate adjudicatory proceedings on December 17, 2015, was a baseless
charade concocted by Carrozza and Sloane aimed at destroying Dr. Ramsaran's
career and livelihood. Pet.App. 48a.
BORIM declined to consider whether to accept or deny the Magistrate's
Recommended Decision for three months, until January 10, 2019. 4 Although Sloane
admitted knowing that Dr. Ramsaran had initiated the underlying lawsuit against
her "through the grapevine," she refused to recuse herself from BORIM's decision on
whether to accept DALA's recommended decision or remand the proceeding back for
further findings. Am.Comp., at 3-4. Notwithstanding that BORIM's own regulations
prohibit disturbing a Magistrate's findings on credibility, such as those in the
Recommended Decision, Sloane personally signed an Order on January 24, 2019,

4

Pursuant to 801 CMR I.OJ (JJ)(c)(2), ifBORIM initiates an administrative proceeding and refers it to

DALA for adjudication, a DALA magistrate is required to preside at the hearings and ultimately issue a
recommended or "tentative" decision at the end of adjudication. Once the· DALA magistrate issues a
recommended decision, BORIM "may affirm and adopt the tentative decision in whole or in part, and it
may recommit the tentative decision to the Presiding Officer for further findings as it may direct." 801
CMR 1.0 I (11 )(c)(2).
11

declining to adopt the Recommended Decision and baselessly remanding the matter
back to DALA for additional litigation. Pet.App. 22a-23a.
After Sloane inappropriately refused to recuse herself and baselessly
remanded the matter, the Supreme Judicial Court ("SJC") granted Dr. Ramsaran a
hearing in an action he had previously initiated against BORIM in September 2017
for bad-faith discovery and litigation practices.

Pet.App. 25a.

Recognizing the

devastating impacts of defending himself against BORIM for nearly eight (8) years,
on March 22, 2019, the SJC issued an Order stating "[i]n view of the protracted nature
of the disciplinary proceedings, the Court strongly encourages the BORIM to
prioritize its consideration and final determination of the proceedings." Pet.App. 26a.
On April 30, 2019, DALA issued its Response to BORIM's Order of Remand,
confirming that Dr. Schwerdt lacked any credibility to support a finding of Dr.
Ramsaran's misconduct or negligence in medicine. Specifically, the Chief Magistrate
wrote: "[t]o meet its burden of proof, the Petitioner had to produce reliable expert
medical testimony and, since it failed to do so, I recommended dismissal." Pet.App
29a. The Response further elaborates that "no evidence was offered during the
hearing that would support a finding that the Respondent engaged in conduct that
undermines the public confidence in the integrity of the medical profession." Pet.App.
48a.
On May 30, 2019, after 93 months of expending significant time, money, and
resources to defend himself against a baseless, malicious, and bad faith prosecution
instigated by manufactured and planted covert expert evidence, BORIM adopted

12

DALA's Response and formally dismissed the baseless SOA, thereby fully
exonerating Dr. Ramsaran. 5
III.

Pet.App. 49a.

DR. RAMSARAN'S ALLEGATIONS AND THE DECISIONS OF THE LOWER COURTS
CONCERNING TREATMENT OF FEDERAL QUESTION ISSUES

Dr. Ramsaran commenced this case against the Respondents by filing a
verified complaint with the Middlesex County Superior Court of Massachusetts on
December 14, 2018. On March 11, 2019, Dr. Ramsaran filed his First Amended
Verified Complaint that included counts for violations of 42 U.S.C. §1983, tortious
interference with advantageous relationships, and malicious prosecution. Pet.App.
3a.

Dr. Ramsaran asserted, inter alia, improper conduct committed by the

Respondents during the investigative stage of an administrative inquiry into his

5

As demonstrated in this case, even when a physician prevails, the deliberately protracted and oppressive

nature of the adjudicatory process employed often results in irreparable and extreme harms to the licensee's
reputation and livelihood. BO RIM tirelessly pursued discipline against Dr. Ramsaran over the course of

eight years - with all the unlimited strength, resources, attorneys, and funding made available to it as an
agency of the Commonwealth of Massachusetts. Armed with such powerful resources, BO RIM has earned
a reputation for overzealously targeting physicians in the Commonwealth, often by prolonging litigation
efforts and draining resources until they are no longer able to afford defense costs. Since these are not
criminal matters, the Courts have been unwilling to find due process violations as a result of the protracted
nature of the disciplinary proceedings and BORIM' s abuse of its own regulations; however, the Courts are
cognizant of the devastating harms. Intentional delay and unbearable defense costs often allows BORIM
to strongarm physicians into accepting onerous disciplinary sanctions, destroying their livelihood and any
chance for due process. See generally Kris Olson, Decisions Show Overreach Pattern by MD. Licensing

Board, MASSACHUSETTS LAWYERS WEEKLY, (Jul. 30, 2020).

13

medical practice, which took place between September 2011 and December 2015,
violated his constitutional rights.

Am.Comp.

Jr 80. The Respondents' wrongful

conduct during the investigatory stage directly resulted in violations of Dr.
Ramsaran's constitutional rights and due process rights, as well as various tort
damages. Am.Comp., at 13-16.
More specifically, Dr. Ramsaran alleged that between September 2014 and
August 2015, Carrozza, as the chair ofBORIM's Complaint Committee, overtook and
spearheaded a pervasive investigation to fmd any evidence upon which he could use
to justify a recommendation to BORIM that sufficient cause existed to initiate
disciplinary proceedings aimed at revoking Dr. Ramsaran's medical license.
Am.Comp.

Jr 2-3. Apparently frustrated that he could find no legitimate basis to

recommend sanctions and unwilling to allow Dr. Ramsaran to further advance his
career, Carrozza fabricated evidence against Dr. Ramsaran during the Complaint
Committee's investigation.

Id.

The covert "expert" evidence consisted of rank

accusations of alleged misconduct and incompetence as a physician and was
presented to the Committee as proof, veiled in implied credibility as a purported
"interventional cardiology expert." Id.
Dr. Ramsaran has maintained the allegation that Sloane, as Chair ofBORIM
throughout the subject events, knew that Carrozza was presenting covert expert
evidence during the investigation for the purpose of supplanting the BO RIM retained
expert's evidence in order justify a recommendation that BORIM issue a Statement
of Allegations. Am.Comp.

Jr 80. Moreover, armed with the knowledge that the

14

authorized evidence failed to support a finding of sufficient cause, Sloane permitted
Carrozza to present his "covert expertise" to the BORIM members on the occasion of
a vote on whether to issue the SOA, thereby eventually leading to the initiation of an
adjudicatory proceeding on December 17, 2015. Am.Comp.

Jr 77.

Respondents filed the Motion to Dismiss on April 12, 2019, asserting that Dr.
Ramsaran's claims were barred by various theories; namely, absolute immunity,
claim preclusion, and/or qualified immunity.

Pet.App. la. In Opposition to the

Motion, Dr. Ramsaran stated that absolute immunity was not available for the
Respondents because, at the time Carrozza fabricated evidence against him, no
adjudicatory proceeding had been initiated, no statement of allegations had been
issued, BO RIM had not determined that sufficient cause existed to pursue sanctions,
the Complaint Committee had not recommended that BORIM issue a SOA, and the
investigation had not led to the discovery of sufficient evidence of misconduct.
Simply, Carrozza was neither acting as an advocate of the state nor serving any
prosecutorial function when he fabricated and planted expert evidence against Dr.
Ramsaran during the investigation between September 2014 and August 2015. See
Transcript of Hearing on Motion to Dismiss, Mass. Super. Ct. no. 1881CV03571, p. 7,
lines 13-15 (Aug.14, 2019) (hereinafter "Motion Transcript").
During the August 14, 2019 trial court motion hearing, the Superior Court
Judge specifically inquired about the alleged conduct and the impact of Carrozza's
investigatory function:
And let me ask you, while you're still standing, well, Mr. Kelley, the -this investigatory -- you talked about this not really being an
15

adjudicatory or a prosecutorial function but more along the lines of an
investigatory function. Is there some case law that says if it's simply at
an investigatory stage that this immunity does not apply?
Motion Transcript, p.11, line 25- p.12, line 6.
In response, Dr. Ramsaran's counsel explained that absolute immunity only protects
conduct that is a judicial function or a prosecutorial function. Investigative work or
fabricating evidence during a pre-adjudicatory investigation, before sufficient cause
exists to pursue discipline, is not protected by absolute immunity. Specifically citing
to the controlling authority, Dr. Ramsaran's counsel explained:
Dr. Carrozza, in the initial stages, was investigating as a member of the
complaint committee with Attorney DeRensis. They were investigating
whether this should go forward. They were not adjudicating. They were
not prosecuting. So if they fall out of those categories, then absolute
immunity does not attach. And I'd cite to Buckley v. Fitzsimmons in
talking about the distinction in functions or roles.
Motion Transcript, p. 12, lines 13-20.
On October 3, 2019, the lower court entered its Order and Final Judgment
allowing the Defendants' Motion to Dismiss. By way of finding, the decision stated,

in its entirety, that the Motion to Dismiss was:
ALLOWED as I find that the Defendants are entitled to absolute
immunity in the performance of their roles at the Board. I am not
convinced that the Claims are barred by Claim preclusion or by qualified
immunity. Final Judgment shall enter dismissing the Plaintiffs'
Complaint.
Pet.App. la. The court provided no analysis for its finding or guidance for its decision
to grant absolute immunity. The Court also failed to discuss how the alleged conduct
(fabricating illegitimate and covert expert evidence to use as false proof of misconduct

16

against a physician) at the time it was taken (during an investigation, before
sufficient cause existed to initiate adjudicatory proceedings) was a function of a
prosecutor or judge that is protected by absolute immunity. Pet.App. la. Rather, the
Court simply accepted that BORIM members are absolutely immune from civil
liability, merely by virtue of their positions as board members, regardless of the
nature or function of the alleged conduct. Dr. Ramsaran filed a timely notice of appeal
on October 29, 2019.
Oral arguments were held before the Appeals Court on November 12, 2020. In
both brief and argument, Dr. Ramsaran precisely identified the timing and nature of
the Appellees' unlawful conduct and argued absolute immunity cannot apply because
the Appellees were acting, at best, as investigators, not prosecutors, when Carrozza
fabricated covert expert evidence to use against him.

Indeed, Carrozza's

unsubstantiated and planted expert evidence served as the only basis permitting
BORIM to escalate the "fact-finding'' investigation into an adjudicatory proceeding.
On December 31, 2020, the Court of Appeals issued an Order and Memoranda,
pursuant to Rule 23.0, affirming the Judgment of the Superior Court. Pet.App. 3a.
The Decision is based on inaccurate application of the timing and nature of Dr.
Ramsaran's allegations, which ought to be adopted in favor of Dr. Ramsaran for the
purposes of a motion to dismiss.

Pet.App. 4a.

Most concerning, the Decision

tremendously expands the protections of absolute immunity far beyond judicial
precedent. Pet.App.Ga.

17

The Appeals Court decision woefully miscategorized alleged conduct that
occurred well before the SOA and adjudicatory proceeding as general conduct
"undertaken in a prosecutorial, or quasi-judicial, capacity." Pet.App. 6a. Moreover,
despite the alleged conduct occurring prior to August 7, 2015, more than four months
before BORIM sat to vote on whether the evidence demonstrated sufficient cause for
a SOA, the Court concluded the conduct occurred "during board proceedings."
Pet.App. 4a. In so deciding, the Court concluded Carrozza acted as a prosecutor and,
thus, absolute immunity attached from the moment he directed the investigation in
September 2014, despite that BORIM did not determine that sufficient cause existed
until December 17, 2015, fifteen (15) months later. Pet.App. 5a. While the Court
would "express no opinion about whether anything that Carrozza is alleged to have
done would have been wrongful," it nevertheless decided fabrication and planting of
expert evidence while conducting a pre-adjudicatory fact-finding investigation was
"properly considered part of the exercise of Carrozza's prosecutorial function," and
therefore conduct protected by absolute immunity. Pet.App. 6a. Notably, the Appeals
Court decision fails to explain how Carrozza could have possibly been functioning as
a prosecutor, particularly as he had no formal role in the adversarial proceedings that
followed the SOA.
Dr. Ramsaran pursued further appellate review by the Supreme Judicial Court
of Massachusetts, following the Appeals Court's misapplication of absolute immunity.
Dr. Ramsaran's Application for Further Appellate Review was timely filed on
January 21, 2021. The Supreme Judicial Court declined to grant Dr. Ramsaran's

18

request for review of the Appeals Court decision, by means of its Order dated March
11, 2021. Pet.App. 9a.
Following the Massachusetts Court of last resort's denial of Dr. Ramsaran's
application for further appellate review, Dr. Ramsaran now respectfully submits this
Petition for Writ of Certiorari. Due to the main question in this case concerning
applicability of absolute quasi-judicial immunity as a bar to suit against non-attorney
administrative officials for violating a physician's due process rights during an
investigation. prior to any adjudicatory proceedings, jurisdiction is appropriate for
this Honorable Court. This issue has been raised at each stage of the proceedings in
this case.
The Decisions entered by the Superior Court and the Massachusetts Appeals
Court directly conflict with the well-established holdings in this Court's cases, see,
e.g., Buckley v. Fitzsimmons 509 U.S. 259 (1993) and Burns v. Reed, 500 U.S. 478

(1991), and impermissibly expand the limited protections available to administrative
officials for performing prosecutorial functions, as first identified in Butz v.
Economou, 438 U.S. 478 (1977).

The decisions create a perilous rule m

Massachusetts, contrary to legal precedent, that all administrative officials who act
in roles other than prosecutorial or adjudicatory functions are per se entitled to
absolute immunity for actions taken at any time, merely by virtue of their position.
The Decisions in this case effectively eliminate the functional-approach test to
determine whether an administrative official's specific conduct, at the time it was
taken, is protected by absolute immunity in Massachusetts; justice requires reversal.

19

REASONS FOR GRANTING WRIT OF CERTIORARI
J.

THIS CASE INVOLVES AN IMPORTANT FEDERAL QUESTION WITH RESPECT TO
WHETHER ADMINISTRATIVE OFFICIALS OF THE MASSACHUSETTS BOARD OF
REGISTRATION IN MEDICINE ARE ENTITLED TO ABSOLUTE IMMUNITY FOR
CONSTITUTIONAL VIOLATIONS COMMITTED BY FABRICATING COVERT
EXPERT EVIDENCE WHILE INVESTIGATING A PHYSICIAN.

After the enactment of 42 U.S.C. § 1983, courts addressed cases which called
into question the implication of governmental immunity for specific types of conduct.

See, e.g., Bradley v. Fisher, 80 U.S. 335, 347 (1872); Imbler v. Pachtman, 424 U.S.
409 (1976); Burns v. Reed, 500 U.S. 478 (1991). In all but the most exceptional cases,
officials receive a limited standard of "qualified" or good-faith immunity.

The

Supreme Court has "recognized, however, that some officials perform 'special
functions' which, because of their similarity to functions that would have been
immune when Congress enacted § 1983, deserve absolute protection from damages
liability." Buckley v. Fitzsimmons, 509 U.S. 259, 268-269 (1993), citing Butz v.
Economou, 438 U.S. 478, 508 (1977).
Recognizing that administration of justice is a vitally important function of
government, courts have extended absolute immunity to conduct that is "intimately
associated with the judicial process" of legal proceedings. Imbler, 424 U.S. at 430.
To this end, the Supreme Court ruled in Bradley v. Fisher that because the function
of a judge is so vitally important and the very nature of the position likely to expose
judges to suit from aggrieved parties, judges deserve absolute immunity for acts
taken within their judicial capacity, in order to preserve integrity of the judiciary.

See Bradley, 80 U.S. at 349. Officials other than judges have received absolute

20

immunity when their actions are "intimately associated with the judicial process."
For example, the Imbler Court held that prosecutors were entitled to absolute
immunity for conduct taken as "advocates for the state." Imbler, 424 U.S. at 431. As
with judges, absolute immunity does not shield a prosecutor for all actions, but rather
is limited to those actions taken as advocates for the state in adversarial proceedings.
See Burns, 500 U.S. at 478; Buckley, 509 U.S. at 259.

In the administrative context, courts have identified two "quasi-judicial" roles
that are closely akin to the judicial functions protected by absolute immunity:
adjudicatory functions and prosecutorial functions. See Butz v. Economou, 438 U.S.
at 513. Thus, an administrative official claiming absolute immunity must establish
that the challenged conduct was "functionally comparable" to that of a judge or a
prosecutor who would normally be entitled to absolute immunity for taking the same
actions, at the time and under the circumstances as alleged. Id., at 513. If the
administrative official's conduct fails to satisfy the test warranting the extension of
absolute immunity to a judge or a prosecutor in similar situations, the official's claim
must also fail. See Butz, 438 U.S. at 514.
In all cases, most important to the determination of absolute immunity is
application of the functional-approach test to the specific alleged conduct, centering
on the "the nature of the function performed, not the identity of the actor who
performed it." Forrester v. White, 484 U.S. 219, 229 (1988). The analysis does not
ask if the official ever acts "quasi-judicially," but rather whether, at the time of the
conduct, the official was acting "functionally comparable" to a judge or prosecutor.

21

See Butz, 438 U.S. at 513; and Burns v. Reed, 500 U.S., at 486 ("the official seeking
absolute immunity bears the burden of showing that such immunity is justified for
the function in question.").
In the context of prosecutorial absolute immunity, this Court explained in
Buckley that the question "is whether the prosecutors have carried their burden of
establishing that they were functioning as 'advocates' when" the challenged conduct
occurred. Buckley. 509 U.S., at 27 4 (emphasis added). The Buckley Court found that
the defendant prosecutor attorneys were not acting as advocates because, at the time
of the challenged conduct (similar to this case, fabricating unreliable expert
evidence), probable cause to arrest or initiate charges against the plaintiff did not
exist (also similar here). See id., at 273. Absent sufficient cause to initiate judicial
proceedings, the "mission at that time was entirely investigative in character. A
prosecutor neither is, nor should consider himself to be, an advocate before he has
probable cause to have anyone arrested." Id., at 274.
As such, this case involves an important federal question concerning the
availability of absolute immunity for conduct committed by administrative officials.
While there is no dispute that certain government officials are entitled to absolute
immunity for actions taken while functioning as a prosecutor or judge, the lower court
decisions advance the incorrect position that administrative officials deserve absolute
immunity for all conduct based on position or title, regardless of the precise function
under scrutiny. In doing so, the decisions afford far greater protections to nonattorney administrative officials than ought to be granted.

22

II.

THE MASSACHUSETTS APPEALS COURT DECIDED AN IMPORTANT FEDERAL
QUESTION IN A MANNER WHICH SIGNIFICANTLY CONFLICTS WITH RELEVANT
DECISIONS OF THIS COURT, FINDING THAT THE RESPONDENTS WERE
ENTITLED TO ABSOLUTE IMMUNITY BECAUSE FABRICATING AND PLANTING
EXPERT EVIDENCE DURING A PRE-ADJUDICATORY INVESTIGATION IS A
FUNCTION OF A PROSECUTOR.

In the present matter, the Respondents argue that, even if Carrozza planted
covert expert evidence in order to justify recommending that BORIM issue a SOA
against Dr. Ramsaran, such conduct is shielded from liability. Respondents claim
that Carrozza is entitled to absolute immunity because, by fabricating false evidence
during his investigation to later serve as the basis for recommending that BORIM
initiate adjudicatory proceedings, he was functioning as a prosecutor.

Thus,

Respondents wish to extend absolute immunity to include any and all activities of
administrative officials while conducting investigations or fact-finding missions, in
complete conflict with well-established principles and precedent. This unavailing
argument disregards this Court's analysis in Buckley. that:
There is a difference between the advocate's role in evaluating evidence
and interviewing witnesses as he prepares for trial, on the one hand, and
the detective's role in searching for the clues and corroboration that
might give him probable cause to recommend that a suspect be arrested,
on the other hand. Buckley. 509 U.S., at 274.
The critical factor, according to Buckley, is that once the prosecutor determines
that the evidence gives rise to sufficient cause to initiate charges, they become the
state's advocate in preparation of imminent adversarial proceedings. Conversely,
when a prosecutor or other official is conducting investigative work in order to
discover or create evidence that may give rise to sufficient cause, the official functions
not as an advocate - but as a detective or investigator, and is not protected by
23

absolute immunity. See Buckley, 509 U.S., at 274; and Burns, 500 U.S., at 494-496
(defendant prosecutor was not absolutely immune for legally advising police to obtain
confession through hypnosis).
Once determined that the challenged conduct occurred prior to having
sufficient cause to initiate legal proceedings, the official's role can only be that of an
investigator. Even if the unlawful pre-adjudicatory investigatory conduct eventually
leads to the initiation of adjudicatory proceedings, the
prosecutor may not shield his investigative work with the aegis of
absolute immunity merely because, after a suspect is eventually
arrested, indicted, and tried, that work may be retrospectively described
as 'preparation' for a possible trial. Buckley, 509 U.S., at 276.
Accordingly, the Respondents cannot retroactively shield their involvement rn
fabricating planting covert expert evidence prior to having sufficient cause under the
guise of "trial preparation work," merely because adjudicatory proceedings were
eventually initiated months later.
The Appeals Court erred in accepting the Respondents' legally defective
argument that fabricating and planting evidence during the Complaint Committee's
investigation between September 2014 and August 2015 amounted to "evaluating
evidence" and other general trial preparation.

Notwithstanding the fact that

Carrozza is not an attorney and had no involvement in the actual prosecution of

24

adjudicatory proceedings, 6 the ruling affirmatively grants any and all BORIM
members unfettered power to engage in investigatory misconduct at any point
following BORIM's receipt of a complaint about a physician.

Allowing BORIM

members to violate the constitutional rights of its licensees without accountability
would only promote further abuse and contravene the principles for absolute
immunity.
The lower decision also greatly ignores the character of Dr. Ramsaran's
particular allegations. While it aptly describes some general conduct that could be
seen as a prosecutorial function, such as "making inquiry at a regulatorily authorized

hearing of the plaintiff himself, [and] obtaining information about the plaintiff from
third parties following the completion of the investigator's investigation," these acts

are not what has been alleged in this case, as the challenged conduct occurred before
Carrozza could have functioned as an advocate. 7 See Buckley. 509 U.S., at 273

6

In the Respondents' lower court filings, Carrozza asserts he had no further involvement beyond August

2015, months before BORIM considered whether the evidence gathered during the investigation gave rise
to sufficient cause to issue the SOA and initiate the adjudicatory proceeding.
7

The Appeals Court Decision appears to have also seriously misconstrued the claims in this case,

incorrectly stating that Dr. Rarnsaran alleges "an investigation of the plaintiff was widertaken by a board
investigator between 2011 and 2014," and Carrozza's involvement occurred exclusively "following the
completion of the investigator's investigation." The entire crux of Dr. Rarnsaran's allegations is that
Carrozza fabricated illegitimate expert evidence while leading the Committee's fact-gathering investigation
between September 2014 and August 2015. With respect to the purported "regulatory authorized hearing,"
referenced by the Court, Dr. Ramsaran can only assume the Court was referring to the June 18, 2015

25

(finding that an official cannot function as an advocate before having sufficient cause
to prosecute in an adversarial proceeding).
As such, the decision improperly decided the issue of absolute immunity by
asking whether any part of Carrozza's position as a BORIM member could ever be
seen as a prosecutorial function, instead of distinguishing the specific conduct alleged
to determine if Carrozza was acting as an advocate of the state at the time of the
challenged conduct. Pet.App. 6a. The Appeals Court failed to appropriately ask
whether the alleged conduct, fabricating and planting evidence during a preadjudicatory investigation and prior to the existence of sufficient cause, constitutes a
protected prosecutorial function. Clearly, the answer to that question is no; thus, the
decision completely disregards the rulings of this Court. In all cases, it is the function
of the conduct in question at the time it was taken, not the position of the official, that
is essential for absolute immunity. See Burns v. Reed, 500 U.S. at 486.
The decision in Burns is of particular guidance here. The defendant prosecutor
in Burns engaged in some activity which was clearly prosecutorial in nature, and
some conduct which was plainly not. See Burns, 500 U.S., at 478. The plaintiff
alleged that the defendant prosecutor should not be entitled to absolute immunity for
any conduct, but this Court reasoned that the plaintiff was only half correct.

investigatory conference of Dr. Ramsaran, which necessarily occurred "prior to" any adjudicatory hearing
or proceeding. See 243 CMR 1.03 (4). Accordingly, all of the alleged challenged conduct occurred during
this investigation, prior to the recommendation by the Complaint Committee to issue a SOA.

26

Specifically, this Court ruled that although the defendant prosecutor was entitled to
absolute immunity for presenting evidence during a probable cause hearing, the same
prosecutor was not entitled to absolute immunity for advising police that it was
acceptable to obtain the plaintiffs confession by means of hypnosis - even though
said confession was later used as evidence at the very same probable cause hearing.
See id., at 478.
Almost identical to the circumstances in Burns and Buckley. while the
Respondents may have been entitled to absolute immunity for the act of voting as a
member of BORIM to initiate adjudicatory proceedings against Dr. Ramsaran on
December 17, 2015, the same cannot be true with respect to the earlier fabrication
and planting of covert expert evidence while investigating Dr. Ramsaran. See Burns,
500 U.S., at 478; Buckley. 509 U.S., at 274 ("When a prosecutor performs the
investigative functions normally performed by a detective or police officer, it is
'neither appropriate nor justifiable that, for the same act, immunity should protect
the one and not the other"'). In this case, Carrozza was functioning only as a detective
between the time when he took over the investigation (September 2014) and the time
when the Complaint Committee decided to recommend that BORIM issue a
Statement of Allegations based on his illegitimate covert expert evidence (August
2015). Merely because he was later involved as a member of BO RIM to vote to initiate
adjudicatory proceedings in December 2015, Carrozza is not entitled to absolute
immunity for his prior wrongful conduct during the pre-adjudicatory fact-finding
investigation between September 2014 and August 2015. See id.

27

The fact that the Appeals Court based its decision on a misapplication of the
basic and fundamental test to determine absolute immunity establishes the need for
further review. While the Court correctly concluded that the "question before us is
whether Carrozza was discharging a prosecutorial or adjudicative function when
undertaking the allegedly wrongful acts," the Court disregarded the timing, nature,
and character of the specific "wrongful acts" alleged by Dr. Ramsaran. Instead, and
in direct conflict with the well-established rulings of this Honorable Court, the
Decisions in this case advance the inequitable position that if a non-attorney state
administrative official sometimes can be seen to function as a prosecutor or a judge,
the official is per se "entitled to absolute immunity in the performance of their roles at
the Board," regardless of when the actions took place or the function of the particular
challenged conduct.

Pet.App. la.

In deciding that administrative officials are

entitled to absolute immunity based on the title of their position, as opposed to the
precise function served by the specific challenged conduct, the lower Courts have
ignored the fundamental concepts and limitations of absolute immunity set forth in
Butz v. Economou, Burns v. Reed, and Buckley v. Fitszimmons.

CONCLUSION
In light of the issues of public concern and the devastating impact on interests
of justice present in this case, Dr. Ramsaran respectfully requests that this Honorable
Court allow this Petition and grant a Writ for Certiorari to further examine and
reverse the state court decisions issued in direct conflict with the rulings of this Court.
As sound public policy, unelected bureaucrats should not wield such unfettered power

28

and authority to exert against a class of citizens in the Commonwealth without any
accountability. Although Dr. Ramsaran agrees that certain members of BO RIM are
absolutely immune for conduct taken in a prosecutorial function, justice requires that
they enjoy no more immunity than is necessary to protect the integrity of the role in
which they were truly functioning, which, in this case, is that of an investigator
searching for and fabricating evidence that may give rise to sufficient cause in order
to recommend that adjudicatory proceedings be initiated. Absolute immunity is
neither required to preserve the integrity of BORIM investigations nor appropriate
to protect BORIM members for committing constitutional violations at any and all
times.

29

DATED this 61h day of August, 2021.

Respectfully submitted,
On behalf of the Petitioner,
Eddison Ramsaran, M.D.

J. Peter Kelley, Esq.
Counsel of Record, a:
Alexander P. Volpe, Esq.
BRUCE & KELLEY, P.C.
20 Mall Road, Suite 225
Burlington, MA 01803
Tel: (781) 262-0690
Fax: (781) 229-0383
pkelley@brucekelleylaw.com
avol:Qe@brucekelleylaw.com

30

